Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



 INDIANA IMPROPERLY CLAIMED
 FEDERAL REIMBURSEMENT FOR
   ALL REVIEWED MEDICAID
    INPATIENT PSYCHIATRIC
HOSPITAL SERVICE PAYMENTS TO
  EVANSVILLE STATE HOSPITAL


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                        June 2013
                                                      A-05-12-00041
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Indiana Medicaid Program

The Indiana Office of Medicaid Policy and Planning (State Medicaid agency) administers the
Indiana Medicaid program according to the CMS-approved State plan. The State Medicaid
agency makes Medicaid payments to eligible hospitals and claims Federal reimbursement for a
portion of those payments. The Indiana Division of Mental Health and Addiction operates six
State-owned psychiatric hospitals that provide inpatient treatment for mental health conditions.
The Indiana State Department of Health is the State survey agency responsible for determining
whether these hospitals meet the standards for participation in the Medicaid program. Evansville
State Hospital (Evansville), one of the six State-owned psychiatric hospitals, provides inpatient
psychiatric services primarily to adults with severe mental illness. During the audit period,
January 1, 2008, through December 31, 2010, Evansville participated in the Medicaid, but not
the Medicare, program.

Federal Requirements for Inpatient Psychiatric Hospital Services

For States to claim Federal reimbursement for their Medicaid inpatient psychiatric service
payments to a psychiatric hospital, the hospital’s inpatient services must meet the Federal
definitions of such services. These definitions require the provider to demonstrate compliance
with the basic Medicare Conditions of Participation (CoP) generally applicable to all hospitals
and two special Medicare CoP applicable to psychiatric hospitals. The basic Medicare CoP
address issues such as licensing, quality of care, safety, patient rights, self-assessment and
performance improvement, and service availability. The special Medicare CoP specify staffing
and medical record requirements.

A psychiatric hospital must undergo review by qualified health care professionals to demonstrate
compliance with the basic and special Medicare CoP. That review provides CMS with
reasonable assurance that participating facilities are improving the health and protecting the
safety of Medicaid beneficiaries. For periods in which a psychiatric hospital does not
demonstrate compliance with the basic and special Medicare CoP, all inpatient psychiatric
service payments received from the State Medicaid agency are ineligible for Federal
reimbursement.



                                                i
OBJECTIVE

Our objective was to determine whether the State Medicaid agency claimed Federal
reimbursement for inpatient psychiatric service payments made to Evansville in accordance with
certain Federal requirements for inpatient psychiatric hospital services.

SUMMARY OF FINDING

The State Medicaid agency claimed $7,092,206 in Federal reimbursement for inpatient
psychiatric service payments made to Evansville that were not in accordance with Federal
requirements for inpatient psychiatric hospital services. Evansville did not demonstrate
compliance with the special Medicare CoP at any time during the audit period. Therefore, all of
the $7,092,206 in such Federal reimbursement for claims with dates of service during the audit
period was not allowable. The State Medicaid agency made these improper claims because it
believed that Evansville had met all requirements to be eligible for Medicaid inpatient
psychiatric service payments.

RECOMMENDATIONS

We recommend that the State Medicaid agency:

   •   refund $7,092,206 to the Federal Government for its share of inpatient psychiatric service
       payments made to Evansville for claims with dates of service when it did not demonstrate
       compliance with the special Medicare CoP and

   •   ensure that Federal reimbursement for Medicaid inpatient psychiatric service payments to
       psychiatric hospitals is claimed only if those hospitals can demonstrate compliance with
       the special Medicare CoP.

STATE MEDICAID AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State Medicaid agency did not concur with our first
recommendation and did not comment on our second recommendation. The State Medicaid
agency did not concur with our first recommendation because it believes that Evansville
demonstrated compliance with the special Medicare CoP throughout the audit period.

After reviewing the State Medicaid agency’s comments, we maintain that our findings and
recommendations are valid. Federal Medicaid requirements mandate that inpatient service
payments to psychiatric hospitals are eligible for Federal reimbursement only if they demonstrate
compliance with the special Medicare CoP. Evansville did not demonstrate such compliance
during the audit period.




                                               ii
                                                    TABLE OF CONTENTS

                                                                                                                                            Page

INTRODUCTION......................................................................................................................... 1

     BACKGROUND ...................................................................................................................... 1
       Medicaid Program ............................................................................................................... 1
       Indiana Medicaid Program .................................................................................................. 1
       Federal Requirements for Inpatient Psychiatric Hospital Services..................................... 1

     OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................... 3
       Objective ............................................................................................................................. 3
       Scope ................................................................................................................................... 3
       Methodology ....................................................................................................................... 3

FINDING AND RECOMMENDATIONS .................................................................................. 4

     FEDERAL REQUIREMENTS ................................................................................................. 4

     EVANSVILLE DID NOT DEMONSTRATE COMPLIANCE WITH SPECIAL
     MEDICARE CONDITIONS OF PARTICIPATION DURING THE AUDIT PERIOD ......... 4

     RECOMMENDATIONS .......................................................................................................... 5

     STATE MEDICAID AGENCY COMMENTS ........................................................................ 5

     OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................... 6

APPENDIX

     STATE MEDICAID AGENCY COMMENTS




                                                                       iii
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Indiana Medicaid Program

The Indiana Office of Medicaid Policy and Planning (State Medicaid agency) administers the
Indiana Medicaid program according to the CMS-approved State plan. The State Medicaid
agency makes Medicaid payments to eligible hospitals and claims Federal reimbursement for a
portion of those payments. The Indiana Division of Mental Health and Addiction operates six
State-owned psychiatric hospitals that provide inpatient treatment for mental health conditions.
The Indiana State Department of Health is the State survey agency responsible for determining
whether these hospitals meet the standards for participation in the Medicaid program. Evansville
State Hospital (Evansville), an institution for mental diseases (IMD) and one of the six State-
owned psychiatric hospitals, provides inpatient psychiatric services primarily to adults, including
those under age 21 and those aged 65 or older, with severe mental illness. During the audit
period, January 1, 2008, through December 31, 2010, Evansville participated in the Medicaid,
but not the Medicare, program.

Federal Requirements for Inpatient Psychiatric Hospital Services

For States to claim Federal reimbursement for their Medicaid inpatient psychiatric service
payments to a psychiatric hospital, the hospital’s inpatient services must meet the Federal
definitions of such services. These definitions require the provider to demonstrate compliance
with the basic Medicare Conditions of Participation (CoP) generally applicable to all hospitals
and two special Medicare CoP applicable to psychiatric hospitals.

Medicaid Payments

Pursuant to § 1903(a)(1) of the Act, States may claim Federal reimbursement for a portion of
their Medicaid medical assistance payments. For patients in IMDs, a category that generally
includes psychiatric hospitals, medical assistance includes inpatient hospital services for




                                                 1
individuals aged 65 or older but excludes care or services for younger individuals, except for
inpatient psychiatric hospital services for individuals under age 21 (§ 1905(a) of the Act). 1

Definitions of Medicaid Inpatient Psychiatric Hospital Services

The Federal definitions of Medicaid inpatient psychiatric hospital services require the hospitals
providing such services to comply with Medicare CoP, including two special Medicare CoP.
The basic Medicare CoP address issues such as licensing, quality of care, safety, patient rights,
self-assessment and performance improvement, and service availability (42 CFR §§ 482.1–
482.23 and 42 CFR §§ 482.25–482.57). The special Medicare CoP specify staffing and medical
record requirements (42 CFR §§ 482.61 and 482.62).

Demonstrating Compliance With Medicare Conditions of Participation

To demonstrate compliance with the basic and special Medicare CoP, a psychiatric hospital must
undergo review by qualified health care professionals. Medicare-participating psychiatric
hospitals are generally deemed to meet both the basic and special Medicare CoP for Medicaid
purposes (42 CFR § 488.5(b)). Psychiatric hospitals that do not participate in Medicare can
demonstrate compliance with the basic and special Medicare CoP by successfully completing a
survey of those CoP performed by the State survey agency (42 CFR § 488.10(a)). During the
audit period, a psychiatric hospital could also generally demonstrate compliance with the basic
Medicare CoP 2 by being accredited as a hospital by CMS-approved organizations, such as the
Joint Commission. 3 However, during that time, such accreditation did not demonstrate
compliance with the special Medicare CoP (42 CFR § 488.5(a)). 4 According to the CMS State
Operations Manual, § 2718A, psychiatric hospitals had to be specially surveyed by qualified
psychiatric health care professionals to demonstrate compliance with the special Medicare CoP.

Accreditation or survey by qualified health care professionals provides CMS with reasonable
assurance that participating facilities are improving the health and protecting the safety of
Medicaid beneficiaries. To provide such assurance, the surveys must be performed “as
frequently as necessary to ascertain compliance” (42 CFR § 488.20(b)(1)).

For periods in which a psychiatric hospital does not demonstrate compliance with the basic and
special Medicare CoP, all inpatient psychiatric service payments received from the State
Medicaid agency are ineligible for Federal reimbursement.


1
 Pursuant to 42 CFR § 441.151(a)(3), medical assistance also includes necessary inpatient psychiatric hospital
services for individuals aged 21 if they were receiving such services immediately before reaching age 21.
2
  One exception is the utilization review requirement in 42 CFR § 482.30; however, compliance with the utilization
review requirement was outside the scope of our audit.
3
 The Joint Commission was previously known as the Joint Commission on Accreditation of Healthcare
Organizations and is so referenced in 42 CFR § 488.5(a).
4
 After the audit period (January 1, 2008, through December 31, 2010), CMS granted the Joint Commission deeming
authority with respect to the two special Medicare CoP (76 Fed. Reg. 10598 (Feb. 25, 2011)).



                                                         2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State Medicaid agency claimed Federal
reimbursement for inpatient psychiatric service payments made to Evansville in accordance with
certain Federal requirements for inpatient psychiatric hospital services.

Scope

We reviewed Evansville’s compliance for the period from January 1, 2008, through
December 31, 2010, with certain Federal requirements for inpatient psychiatric hospital services.
We identified $7,092,206 in Federal reimbursement for Medicaid inpatient psychiatric service
payments made to Evansville for claims with dates of service during the audit period. We
limited our review of the State Medicaid agency’s internal controls to those significant to the
objective of our audit.

We performed our fieldwork from February through October 2012.

Methodology

To accomplish our objective, we:

   •    examined Federal and State Medicaid requirements for inpatient psychiatric hospital
        services,

   •    identified periods for which neither the State Medicaid agency nor Evansville could
        demonstrate Evansville’s compliance with certain Federal requirements for inpatient
        psychiatric hospital services,

   •    held discussions with officials of the State Medicaid agency and reviewed its Medicaid
        payment records, and

   •    determined the amount of Federal reimbursement for Medicaid inpatient psychiatric
        service payments made to Evansville for claims with dates of service during periods
        when it did not demonstrate compliance.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




                                                3
                               FINDING AND RECOMMENDATIONS

The State Medicaid agency claimed $7,092,206 in Federal reimbursement for inpatient
psychiatric service payments made to Evansville that were not in accordance with Federal
requirements for inpatient psychiatric hospital services. Evansville did not demonstrate
compliance with the special Medicare CoP at any time during the audit period. Therefore, all of
the $7,092,206 in such Federal reimbursement for claims with dates of service during the audit
period was not allowable. The State Medicaid agency made these improper claims because it
believed that Evansville had met all requirements to be eligible for Medicaid inpatient
psychiatric service payments.

FEDERAL REQUIREMENTS

Pursuant to 42 CFR §§ 440.140(a) and 482.60, an IMD in which individuals aged 65 or older
receive Medicaid inpatient hospital services must meet the basic Medicare CoP
(42 CFR §§ 482.1–482.23 and 42 CFR §§ 482.25–482.57) applicable to all hospitals and two
special Medicare CoP applicable to psychiatric hospitals (42 CFR §§ 482.61 and 482.62).
Pursuant to §§ 1905(h)(1) and 1861(f) of the Act, a psychiatric hospital that provides Medicaid
inpatient psychiatric services to individuals under age 21 must also meet the basic and special
Medicare CoP.

The Medicare CoP for psychiatric hospitals are minimum standards that provide a basis for
improving quality of care and protecting the health and safety of Medicaid beneficiaries. The
basic Medicare CoP address issues such as licensing, quality of care, safety, patient rights, self-
assessment and performance improvement, and service availability (42 CFR §§ 482.1–482.23
and 42 CFR §§ 482.25–482.57). The special staffing Medicare CoP require that psychiatric
hospitals “have adequate numbers of qualified professional and supportive staff to evaluate
patients, formulate written, individualized comprehensive treatment plans, provide active
treatment measures, and engage in discharge planning” (42 CFR § 482.62). The special medical
record Medicare CoP require that “medical records maintained by a psychiatric hospital …
permit determination of the degree and intensity of the treatment provided to individuals who are
furnished services in the institution” (42 CFR § 482.61).

EVANSVILLE DID NOT DEMONSTRATE COMPLIANCE WITH SPECIAL
MEDICARE CONDITIONS OF PARTICIPATION DURING THE AUDIT PERIOD

The State Medicaid agency improperly claimed $7,092,206 in Federal reimbursement for
inpatient psychiatric service payments made to Evansville for claims with dates of service when
it did not demonstrate compliance with the special Medicare CoP. Evansville did not participate
in Medicare at any time during the audit period and was not thereby deemed to meet either the
basic or the special Medicare CoP for Medicaid purposes. 5 The Joint Commission accredited
Evansville as a hospital throughout the audit period, and that accreditation generally

5
 Effective January 6, 2012, Evansville began participating in the Medicare program as a psychiatric hospital.
However, such participation cannot retroactively demonstrate Evansville’s compliance with either the basic or the
special Medicare CoP during the audit period, which ended on December 31, 2010.



                                                         4
demonstrated Evansville’s compliance with the basic Medicare CoP. However, Evansville did
not demonstrate compliance with the special Medicare CoP because it had last been surveyed by
the State survey agency to demonstrate compliance with those standards in October 1993. As of
the beginning of the audit period, that survey was more than 14 years old and, therefore, did not
reasonably satisfy the requirement to be resurveyed “as frequently as necessary to ascertain
compliance” (42 CFR § 488.20(b)(1)). Accordingly, the October 1993 survey could not
legitimately demonstrate Evansville’s compliance with the special Medicare CoP during the
audit period.

The State Medicaid agency improperly claimed Federal reimbursement for claims with dates of
service when Evansville did not demonstrate compliance with the special Medicare CoP because
the State Medicaid agency believed that Evansville had met all requirements to be eligible for
Medicaid inpatient psychiatric service payments.

RECOMMENDATIONS

We recommend that the State Medicaid agency:

   •   refund $7,092,206 to the Federal Government for its share of inpatient psychiatric service
       payments made to Evansville for claims with dates of service when it did not demonstrate
       compliance with the special Medicare CoP and

   •   ensure that Federal reimbursement for Medicaid inpatient psychiatric service payments to
       psychiatric hospitals is claimed only if those hospitals can demonstrate compliance with
       the special Medicare CoP.

STATE MEDICAID AGENCY COMMENTS

In written comments on our draft report, the State Medicaid agency did not concur with our first
recommendation and did not comment on our second recommendation. The State Medicaid
agency did not concur with our first recommendation because it believes that the State survey
agency’s October 1993 survey of the special Medicare CoP demonstrated Evansville’s
compliance with those standards throughout the audit period.

The State Medicaid agency indicated that it was entitled to rely on the October 1993 survey
throughout the audit period for two reasons. First, the State Medicaid agency indicated that
42 CFR § 488.20(b)(1) did not stipulate a specific survey or recertification interval. Second, it
stated that there was no indication that the October 1993 survey was no longer valid.
Specifically, it stated that periodic Joint Commission accreditation surveys and recent CMS
Medicare certification provided adequate assurance that Evansville had maintained its
compliance with the special Medicare CoP after the October 1993 survey. It also stated that we
did not identify evidence of noncompliance, “[n]or were there any deficiencies that needed
correction.”

The State Medicaid agency’s comments are included in their entirety as the Appendix.




                                                5
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State Medicaid agency’s comments, we maintain that our findings and
recommendations are valid. Federal Medicaid requirements mandate that inpatient service
payments to psychiatric hospitals are eligible for Federal reimbursement only if they demonstrate
compliance with the special Medicare CoP. Evansville did not demonstrate such compliance
during the audit period.

The State Medicaid agency first indicated that 42 CFR § 488.20(b)(1) did not stipulate a specific
survey or recertification interval. That regulation requires State survey agencies to “[r]esurvey
providers or suppliers as frequently as necessary to ascertain compliance.” In this case, we
concluded that, on its face, the October 1993 survey did not reasonably satisfy the requirement
that Evansville be resurveyed “as frequently as necessary to ascertain compliance” because at the
beginning of our audit period (January 1, 2008), the survey was already more than 14 years old.

The State Medicaid agency stated that periodic Joint Commission accreditation surveys and
recent CMS Medicare certification provided adequate assurance that Evansville maintained its
compliance with the special Medicare CoP after the October 1993 survey; we disagree. During
the audit period, Joint Commission accreditation did not demonstrate compliance with the
special Medicare CoP (42 CFR § 488.5(a)). According to the CMS State Operations Manual,
§ 2718A, psychiatric hospitals had to be specially surveyed by qualified psychiatric health care
professionals to demonstrate compliance with the special Medicare CoP. No such survey was
performed during the audit period, nor was one performed in the 14 years prior to our audit
period. We agree that on or after its January 6, 2012, effective date, Evansville’s Medicare
certification as a psychiatric hospital generally demonstrated its compliance with the special
Medicare CoP for Medicaid purposes (42 CFR § 488.5(b)). However, such certification cannot
retroactively demonstrate Evansville’s compliance with the special Medicare CoP during the
audit period, which ended on December 31, 2010.

The State Medicaid agency also stated that we did not identify evidence of noncompliance,
“[n]or were there any deficiencies that needed correction,” but that comment goes beyond the
scope of our audit. Our audit did not determine whether Evansville was compliant with the
special Medicare CoP; it determined only whether Evansville had demonstrated compliance with
the special Medicare CoP as required by CMS regulations and guidance. Evansville did not
demonstrate compliance with the special Medicare CoPs during our audit period.




                                                6
APPENDIX
                                                                                                                 Page 1 of2


       APPENDIX: STATE MEDICAID AGENCY COMMENTS


                                                                                       Michael R. Pence, Governor
                                                                                                   State of Indiana

                       " People
                                                                      Office of Medicaid Policy and Planning
                                                              MS 07, 402 W. W ASHINGTON STREET, ROOM W3 82
                        helping people
                        help 
                                                    INDIANAPOLIS, I N 46204-2739
                        themselves• 





April 4, 2013

Sheri l. Fulcher
Regional Inspector General for Audit Services
Office of Audit Services, Region V
233 North Michigan, Suite 1360
Chicago, IL 60601

Re: OIG Report No. A-05-12-00041

Dear M s. Fulcher:

       The Indiana Office of Medicaid Policy and Planning {OMPP) appreciates the opportunity
to comment on the Office of Inspector General's {OIG) draft reported entitled Indiana
Improperly Claimed Federal Reimbursement for All Reviewed Medicaid Inpatient Psychiatric
Hospital Services Payments to Evansville State Hospital (audit report).

       OMPP strongly disagrees with the OIG's recommendation that it refund $7,092,206 to
the fede ral government for M edicaid inpatient psychiatric services payments made to
Evansville State Hospital (Evansville) for claims made during the audit period. The payments
were allowab le beca use Evansville was certified for compliance with th e special Medicare
conditions of participation (CoP).

       As the draft audit report notes, Evansville was surveyed for compliance with the
Medicare special conditions of participation in October 1993. Audit Report, at 4. This survey
included the record keeping and staffing requirements codified in 42 C.F.R. § 482.61-62.
However, the draft audit report concludes that "the October 1993 survey could not legitimately
demonstrate Evansville's compliance with the special Medicare CoP during the audit period"
because the survey was 14 years oid at the time the audit period began. /d. at 5.

        This is incorrect. The regulation at 42 C.F.R. § 488.20(b)(l) does not provide a time limit
on States' ability to rely on successful hospital surveys. The regulation provides only that CMS
and the State survey agencies must " (r]esurvey providers or suppliers as frequently as
necessary to ascertain compliance and confirm the correction of deficiencies." There was no
indication that the prior survey for the special Medica re conditions of participation was no


                                                  www.IN.gov/fssa 

                                  Equal   Opportun~y/Affirmative Action   Employer 

                                                                                                  Page 2 of2




longer valid, and OIG has not identified one. Nor were there any deficiencies that needed
correction . In 1994, Evansville submitted to the State surveying agency evidence of its
compliance with the corrective action plan based on issues identified during the survey.
Accordingly, OMPP was free to rely on the prior successful survey for compliance with the two
Medicare special CoPs during the audit period.

        From 1998 to 2008, Evansville has received continued accreditation letters from the
Joint Commission on Accreditation of Healthcare Organizations (JCAHO). In light of these
continuous successful surveys from JCAHO, Evansville was not aware of any material changes,
deficiencies, or issues that would necessitate a re-survey for Medicare special CoPs.
Furthermore, Evansville was recently recertified by the Center for Medicare and Medicaid
Services (CMS) for participation in the Medicare program as a psychiatric hospital after a
successful survey by CMS. This successful survey further demonstrates that there were no
changes or deficiencies in the interim that required a re-survey. In the absence of the OIG
identifying issues that would have required Evansville' s recertification, OMPP was entitled to
rely on the prior survey to demonstrate compliance with Medicare special CoPs.

       The State appreciates your consideration of the information provided in this letter. If
you have any questions or require additional information, please contact Kim Forrest at 317­
234-2129 or Kim.Forrest@fssa.in. gov.

Sincerely,




Patricia Casanova
Medicaid Director
